No. 20-237

IN THE

bu,prente Court of the Oittitel3 Otateo
OLD REPUBLIC HOME PROTECTION COMPANY, INC.,
Petitioner,
v.
WILLIAM B. SPARKS, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Oklahoma

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,864 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 12, 2020.

Colin Casey f r gan
Wilson-Epes Printing Co., Inc.

